Nos. 19-1257 and 19-1258
In the

Supreme Court of the United States
MARK BRNOVICH ATTORNEY GENERAL
OF ARIZONA, et al.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Respondents.
ARIZONA REPUBLICAN PARTY, et al.,
Petitioners,
v.
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit
BRIEF OF SENATE STAFFERS AND OTHER
LEADING PARTICIPANTS IN THE 1982
AMENDMENTS TO THE VOTING RIGHTS ACT AS
AMICI CURIAE IN SUPPORT OF RESPONDENTS
Laura W. Brill
Counsel of Record
Nicholas F. Daum
K atelyn A. Kuwata
Kendall Brill & Kelly LLP
10100 Santa Monica Boulevard, Suite 1725
Los Angeles, California 90067
(310) 556-2700
lbrill@kbkfirm.com
Counsel for Amici Curiae
January 20, 2021
301382

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS ........................................... i
TABLE OF CITED AUTHORITIES....................... iii
INTEREST OF AMICI CURIAE ............................. 1
SUMMARY OF ARGUMENT.................................. 3
ARGUMENT ............................................................ 7
I.

JUSTICE
SCALIA’S
CHISOM
HYPOTHETICAL
ACCURATELY
DESCRIBES
CONGRESS’
UNDERSTANDING OF THE 1982
AMENDMENT ........................................... 7

II.

SECTION 2 WAS INTENDED TO
APPLY TO ALL “PROCEDURES” THAT
REDUCE
EQUAL
VOTING
OPPORTUNITY
FOR
RACIAL
MINORITIES,
INCLUDING
FACIALLY-NEUTRAL “TIME, PLACE,
AND MANNER” MEASURES LIKE
LOCATION OF POLLING PLACES ....... 11

III. THE “OPPORTUNITY . . . TO
PARTICIPATE IN THE POLITICAL
PROCESS”
GUARANTEED
BY
SECTION 2 IS A PRACTICAL, NOT
MERELY
A
THEORETICAL,
OPPORTUNITY TO AVAIL OF A
VOTING PROCEDURE ........................... 17

ii
IV. CONGRESS DID NOT INTEND TO
REJECT
“DISPARATE
IMPACT”
ANALYSIS
IN
THE
1982
AMENDMENTS ....................................... 23
V.

CONGRESS IN NO WAY INTENDED
SECTION 2 TO APPLY ONLY TO
SITUATIONS
IN
WHICH
THE
CHALLENGED MEASURE ITSELF
“CREATED”
THE
UNDERLYING
DISCRIMINATION .................................. 26

CONCLUSION ....................................................... 29

iii
TABLE OF CITED AUTHORITIES
Page(s)
Cases:
Allen v. State Bd. of Elections,
393 U.S. 544 (1969), abrogation on other
grounds recognized in Ziglar v. Abbasi,
137 S.Ct. 1843 (2017)........................................ 12
Chisom v. Roemer,
501 U.S. 380 (1991)............................................. 7
Frank v. Walker,
768 F.3d 744 (7th Cir. 2014) ...............3, 6, 27, 29
Graves v. Barnes,
343 F. Supp. 704 (W.D. Tex. 1972)................... 21
Thornburg v. Gingles,
478 U.S. 30 (1986)...................................... passim
Whitcomb v. Chavis,
403 U.S. 124 (1971)........................................... 20
White v. Regester,
412 U.S. 755 (1973).................................... passim

Statutes and Other Authorities
42 U.S.C. § 1973 ..................................................... 16
42 U.S.C. § 1973c ................................................... 16
52 U.S.C. § 10301(a)................................................. 3

iv
52 U.S.C. § 10301(b)............................................3, 23
Extension of the Voting Rights Act: Hearings
Before the Subcomm. on Civil &
Constitutional Rights of the H. Committee
on the Judiciary, 97th Cong. (1981) ..........5, 9, 10
H.R. Rep. No. 97-227 (1981) ........................... passim
Hearings on S. 1564 Before the Comm. on
Judiciary, U.S. Senate, 89th Cong., 1st
Sess., 191 (1965) ............................................... 13
S. Rep. No. 97-417 (1982)................................ passim
Sup. Ct. R. 37.6 ........................................................ 1
Voting Rights Act of 1982: Hearing on S. 53,
S. 1761, S. 1975, S. 1992, and H.R. 3112
Before the Subcomm. on the Constitution of
the Comm. on the Judiciary, 97th Cong.
(1982)................................................................. 16

1
INTEREST OF AMICI CURIAE1
Amici are a group of former staffers to
Democratic and Republican Senators and leaders of
nongovernmental organizations. All were intimately
involved in the legislative effort that led to the
enactment of the 1982 amendments to the Voting
Rights Act. All have deep personal knowledge of the
legislative background of those amendments. They
write to provide the Court with an accurate account
of the legislative history of the 1982 amendments,
and of Congress’ understanding of the amendments
at the time of enactment. Given that the 1982
amendments are now before the Court, amici have an
interest in ensuring that Congress’ actions and
intention in 1982 are accurately represented.
Specifically, amici are:
Armand Derfner, former director of the Voting
Rights Act Project for the Joint Center for Political
Studies in Washington, D.C.
Michael R. Klipper, former Senate Judiciary
Committee Chief Counsel to Senator Charles Mathias
(R. Md.), the chief sponsor of Senate Bill 1992 (97th).

Pursuant to Supreme Court Rule 37.6, counsel for Amici
certify that Amici and their counsel authored this brief in its
entirety, and no party or its counsel, nor any person or entity
other than Amici or their counsel, made a monetary contribution
to this brief’s preparation or submission. All parties have
provided written consent to the filing of this brief.
1

2
Ralph G. Neas, former [1981-82] Executive
Director, The Leadership Conference on Civil Rights,
a leading participant in legislative history of the 1982
Amendments to the Voting Rights Act, and former
Chief Counsel to Senator Edward Brooke (R. Mass.).
Burton V. Wides, former Senate Judiciary
Committee Chief Counsel to Senator Edward M.
Kennedy (D. Mass.), a chief co-sponsor of Senate Bill
1992 (97th).

3
SUMMARY OF ARGUMENT
In 1982, Congress amended the Voting Rights
Act, including the critical amendments to Section 2
that are currently before the Court. Amici were
Congressional staffers and nongovernmental legal
community leaders intimately involved with those
amendments. Amici write to provide an accurate
account of what Congress did in 1982 regarding
Section 2, and the background reasons behind the
amendments. They also write to correct material
misunderstandings of Congressional intent (a)
contained in certain of the party and amicus briefs,
particularly the amicus brief submitted by Senator
Ted Cruz and ten other members of the United States
Senate (“Cruz Brief”) and (b) adopted by the Seventh
Circuit in Frank v. Walker, 768 F.3d 744, 752-54 (7th
Cir. 2014).
Four points are critical.
First, Section 2, as amended, was always
understood by Congress, including when it amended
the VRA in 1982, to apply to all “procedures” that, as
a practical matter, deny minority groups equal
opportunity to participate in the political process.
The language of the statute is clear and was meant to
be clear. Section 2 applies to any discriminatory
“standard, practice, or procedure . . . which results in
a denial or abridgement” of the right to vote. 52
U.S.C. § 10301(a). A “denial or abridgement” is
shown when, based on the “totality of the
circumstances,” members of a minority group “have
less opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice.” Id. § 10301(b). In

4
addition, Section 2 does not impose a “proportional
representation” requirement.
Contrary to the
suggestion by the Private Petitioners in their merits
brief and some amici, nothing in the text or
legislative history of Section 2 and the 1982
amendments suggests—in any way—that there be
one voting-rights regime for redistricting cases and
another, entirely separate regime for supposed “time,
place, and manner” restrictions like limits on polling
places or rules about absentee ballots. Rather, as the
Senate Report (the same report that this Court has
already relied upon as the major guide to Congress’
intent in adopting the amendments) explicitly stated,
Section 2 “remains the major statutory prohibition of
all voting rights discrimination.” S. Rep. No. 97-417,
at 207 (1982) (emphasis added); see Thornburg v.
Gingles, 478 U.S. 30, 43 (1986) (relying on Senate
Report to ascertain the “the nature of § 2 violations
and . . . the proof required to establish these
violations”).
Second, whether in a redistricting case or a case
where a “time, place, and manner” voting procedure
like a polling place location is at issue, Congress
intended the fundamental approach to establishing a
Section 2 violation to remain the same. The
fundamental idea behind the 1982 amendments to
Section 2 was to adopt the approach of Justice
White’s opinion for the Court in White v. Regester,
412 U.S. 755, 766 (1973). That means assessing
whether the procedure in fact provides members of
minority groups “less opportunity” than the white
majority to participate in the political and election
process. And, as Regester makes clear, this is a
deeply pragmatic analysis. It is focused on results
(i.e., impacts and causation), not on an ability to show

5
that the practice or procedure was a product of
express legislative intent to discriminate. It must
take into account history, practice, and context. Most
critically, and contrary to the theory advanced by the
State Petitioners, the United States, and many amici,
“opportunity” means a practical, not merely
theoretical, opportunity to participate in the political
process to the same extent as the majority. As
Regester recognized (and as Congress unquestionably
recognized in its enactment of Section 2), it is not
enough to speak of a merely formal legal
“opportunity” to participate in the political process.
The minority group must in fact have the same
opportunity to participate. Pointing to a theoretical
“opportunity” under the law was never intended to be
enough. Thus, to cite an example before the House in
1981, it was well known that if limiting voter
registration hours was more likely to make it difficult
for overwhelmingly black farmworkers to vote, the
measure would violate Section 2—even if,
theoretically, both black and white voters had the
same opportunity to register to vote during those
hours. See Extension of the Voting Rights Act:
Hearings Before the Subcomm. on Civil &
Constitutional Rights of the H. Committee on the
Judiciary, 97th Cong. (hereinafter “House
Hearings”), pt. 2, at 1521-22 (1981).
Third, contrary to the brief of the Private
Petitioners, the amicus brief submitted by Senator
Ted Cruz and other current U.S. Senators who were
not in office in 1982, and the arguments of several
other amici, Congress never intended to ban all forms
of a “disparate impact” analysis in analyzing a
Section 2 claim.
Congress did—thanks to a
compromise initiated by then-Senator Robert Dole—

6
indicate both in the statute itself and in the
Legislative History that Section 2 did not establish a
“right to have members of a protected class elected in
numbers equal to their proportion in the population,”
i.e., that a mere failure to show proportional
representation would not suffice to state a Section 2
claim. But “proportional representation” is not the
same as “disparate impact.” It is a mistake to
conflate the two. Congress believed that policies,
such as closing of polling places or irregular
scheduling of polling hours, could violate Section 2 if
they disparately impacted minority voters and the
minority voters could show that the disparate impact
was caused by an underlying history of
discrimination and lack of opportunity to participate
in the political process (i.e., “disparate impact plus
causation”).
Fourth, contrary to the Seventh Circuit’s
assertion in Frank, the brief of the State Petitioners
and the United States, and the Cruz Brief, Congress
never understood Section 2 in 1982 (or in 1965) to be
limited to instances in which the voting procedure
itself “created” the underlying discrimination, as
opposed to having a discriminatory effect because of
the context in which the procedure operates. Such a
reading of Section 2 is simply incompatible with both
the legislative history (which considered and
discussed
instances
of
prohibited
voting
discrimination under Section 2 that the Seventh
Circuit’s test would not find to violate Section 2) and
with Regester itself.
Put simply, Congress intended Section 2 to apply
broadly and pragmatically to root out a wide range of
procedures that perpetuate discrimination, based on

7
Congress’ recognition that such discrimination could
and would appear in endlessly novel and inventive
forms. It would be grave error, and contrary to
Congress’ clear intent, for this Court to impose a
cramped construction of Section 2 that limits the
broad and wholistic approach that was the
fundamental purpose equally of the Voting Rights
Act and its amendment in 1982.
ARGUMENT
I.

JUSTICE SCALIA’S CHISOM
HYPOTHETICAL ACCURATELY
DESCRIBES CONGRESS’
UNDERSTANDING OF THE 1982
AMENDMENTS.

Approximately 30 years ago, Justice Scalia
offered a hypothetical that succinctly and accurately
described Congress’ intent in its 1982 amendments to
the Voting Rights Act. He wrote as follows:
If, for example, a county permitted voter
registration for only three hours one day a
week, and that made it more difficult for
blacks to register than whites, blacks would
have less opportunity “to participate in the
political process” than whites, and § 2 would
therefore be violated—even if the number of
potential black voters was so small that
they would on no hypothesis be able to elect
their own candidate.
Chisom v. Roemer, 501 U.S. 380, 408 (1991) (Scalia,
J., dissenting).

8
Justice Scalia’s example accurately and
succinctly captures how Congress in 1982 understood
that Section 2 would operate. It does so in at least
four ways. First, Justice Scalia correctly recognized
that Section 2, without a shadow of a doubt, applies
to facially neutral policies, like “time, place, and
manner” restrictions, that abridge voting rights, not
merely redistricting issues. See infra Section II.
Second, he correctly understood that the analysis of
the “opportunity” to “participate in the political
process” requires a practical assessment of voting
opportunity, and that a facially-neutral measure
which formally gave blacks and whites the same
“opportunity” to register to vote could be, when put
into practice, a highly effective means of reducing
the opportunity of minority groups to vote, even if
there was no practical impact on the ability to elect a
“minority” candidate. See infra Section III. Third, he
recognized that a voting regulation that imposes a
“disparate” impact on minority groups could and
often would violate Section 2, even when a policy was
facially neutral and non-race based. See infra Section
IV. Finally, he recognized that Section 2 was
intended to cover “procedures” that disparately made
it difficult for minority groups to exercise the right to
vote, even when the reason for the disparate
difficulty was not created by the procedure itself, but
by some underlying difference in social or economic
status (in the hypothetical, the fact that black voters
would find it more difficult to register given
extremely limited registration hours, a problem due
not to the restriction itself but, presumably, to the
increased difficulty in leaving work to register during
the restricted hours). See infra Section V.

9
Whether he knew it or not, Justice Scalia’s
hypothetical example was strikingly similar to an
actual voting procedure that Congress considered at
the time of the 1982 amendments to Section 2. On
June 12, 1981, the House Subcommittee on Civil and
Constitutional Rights, considering the legislation
that would ultimately be adopted by the House as
H.R. 3112 (97th), the House bill amending Section 2.
House Hearings, pt. 2, at 1521-22. In that hearing,
the subcommittee discussed an Alabama law that
required voters to “reregister” in certain counties
during inconvenient hours, i.e., only from nine to
four, and that made it substantially more difficult for
black voters to vote. Id. This kind of restriction
caused bipartisan outrage. The Chairman of the
subcommittee, Democratic Congressman Don
Edwards, explained as follows:
In Choctaw County, in Alabama, how do
you explain this? In Choctaw County the
reregistration bill that was passed by the
legislature puts the burden on the voter to
register to vote from the hours of 9 to 4.
Now, this is when a poor black is working,
perhaps out in the field, 30, 40 miles from
home. He or she has to find his or her way
20, 30, 40 miles and reidentify or reregister
or something like that when it is very easy
for most white people in Choctaw County to
reregister.
They have much better
transportation and so forth. How can we
sitting up here look at that in any way and
say that it is designed and it does reduce
the number of black people who can vote?

10
Id. Republican Congressman Henry Hyde, up until
that point the leading opponent of an amendment
that would revise Section 2, after hearing that
testimony, “erupted” and indicated that he would
support amendments to bar such practices as
unlawful discrimination:
I want to say that I have listened with great
interest and concern, and I will tell you,
registration hours from 9 to 4 [are]
outrageous. It is absolutely designed to
keep people who are working and who have
difficulty in traveling from registering. If
that persists and exists, it is more than
wrong.
Id. at 1584.
Days later, Congressman Hyde
introduced an amendment containing language
amending Section 2. Id., pt. 3, at 1815-17; see also
H.R. Rep. No. 97-227, at 16 (1981) (referring to
Choctaw County hours issue and effect on
registration).
Put simply, and as explained further below,
Justice Scalia was correct. No Congressman had any
doubt in 1982 that Section 2 would apply to a
“facially neutral” situation like that described in
Justice Scalia’s hypothetical. Intimations to the
contrary are simply wrong.

11
II. SECTION 2 WAS INTENDED TO APPLY
TO ALL “PROCEDURES” THAT REDUCE
EQUAL VOTING OPPORTUNITY FOR
RACIAL MINORITIES, INCLUDING
FACIALLY-NEUTRAL “TIME, PLACE,
AND MANNER” MEASURES LIKE
LOCATION OF POLLING PLACES.
Congress clearly understood
that the
“procedure[s]” at issue in Section 2 included things
like undue limitations on registration hours, polling
place location restrictions, and other similar faciallyneutral “procedures” that might differentially impact
the ability of minority groups to register to vote and
to vote—what the Private Petitioners’ Merits Brief
describes as “ordinary time, place, and manner
rules.” Br. of Private Pet’rs at 2, 15-16. Indeed, the
inclusion of such procedures under Section 2 was
uncontroversial in 1982, because they had widely
been understood as “procedures” regulated by Section
2 from the date of the initial passage of the initial
Voting Rights Act in 1965.
As this Court explained, just four years after
passage of the 1965 Act:
[Section] 2 of the Act, as originally drafted,
included a prohibition against any
‘qualification or procedure.’ During the
Senate hearings on the bill, Senator Fong
expressed concern that the word ‘procedure’
was not broad enough to cover various
practices that might effectively be employed
to deny citizens their right to vote. In
response, the Attorney General said he had
no objection to expanding the language of

12
the section, as the word ‘procedure’ ‘was
intended to be all-inclusive of any kind of
practice.’ Indicative of an intention to give
the Act the broadest possible scope,
Congress [in 1965] expanded the language
in the final version of [Section] 2 to include
any ‘voting qualifications or prerequisite to
voting, or standard, practice, or procedure.’
Allen v. State Bd. of Elections, 393 U.S. 544, 566-67
(1969), abrogation on other grounds recognized in
Ziglar v. Abbasi, 137 S.Ct. 1843, 1855 (2017). That
“all-inclusive” understanding of the term “procedure,”
intended to give the Voting Rights Act the “broadest
possible scope,” was also intended by Congress when
it amended the Act in 1982. The 1982 Senate Report
emphasized that the discussion between the Attorney
General and Senator Fong referred to in Allen “is not
a stray remark in the extensive proceedings that led
to the [1965] Act’s passage. It is the most direct
evidence of how the Congress understood the
provision, since Congress relied upon the Attorney
General to explain the meaning and operation of this
Executive Branch initiative.” S. Rep. No. 97-417, at
194 (emphasis added). Indeed, the 1982 Senate
Report quoted at length the exchange with Senator
Fong — an exchange that dealt directly with a “time,
place, and manner” voting restriction:
Senator Fong . . . ‘Mr. Attorney General,
turning to Section 2 of the bill . . . there is
no definition of the word ‘procedure’ here. I
am a little afraid that there may be certain
practices you may not be able to include in
the word ‘procedure.’ For example, if there
should be a certain statute in a State that

13
says the registration office shall be open
only 1 day in 3, or that the hours will be so
restricted, I do not think you could bring
such a statute under the word ‘procedure,’
could you? Attorney General Katzenbach.
‘I would suppose that you could if it had
that purpose. I had thought of the word
‘procedure’ as including any kind of practice
of that kind if its purpose or effect was to
deny or abridge the right to vote on account
of race or color.
Id. at 194 n.50 (quoting “Hearings on S. 1564 Before
the Comm. on Judiciary, U.S. Senate, 89th Cong., 1st
Sess., 191 (1965)”).
The House was even more explicit about its
intention to cover “time, place, and manner”
restrictions like burdens on voter registration or
polling place locations under Section 2. It, too,
emphasized that its understanding of the amended
Section 2 was that it would apply to “prohibit any
voting qualification, prerequisites, standard, practice,
or procedure which results in discrimination.” H.R.
Rep. No. 97-227 at 2. The House emphasized that all
such practices would be banned under the amended
Section 2 if they had discriminatory effect or impact.
See id. (“Section 2 would be violated if the alleged
unlawful conduct has the effect or impact of
discrimination on the basis of race, color, or
membership in a language minority group.”). Among
the many kinds of procedures the House specifically
identified as creating potentially discriminatory
practices were countless instances of “vote denial”
discrimination, including “numerous practices and
procedures which act as continued barriers to

14
registration and voting” including “inconvenient
location and hours of registration, dual registration
for county and city elections, refusal to appoint
minority registration and election officials,
intimidation and harassment, frequent and
unnecessary purgings and burdensome reregistration
requirements, and failure to provide or abusive
manipulation of assistance to illiterates.” Id. at 14.
The House identified countless examples of such
practices with discriminatory effect, in Georgia,
Alabama, Texas, Mississippi, and elsewhere. See id.
at 14-17.
The House Report on the 1982 Amendments to
Section 2 also identified polling place location as a
major aspect of potential voting discrimination,
explaining that “the placement of polling places is an
important factor in determining whether minorities
exercise their right to vote. Numerous instances of
polling places located in or moved to places which are
inconvenient, inaccessible, or intimidating to
minorities have been documented.” Id. at 35. Many
specific examples of such “inconvenient” or
“intimidating” relocations were cited. “For example,
in Hopewell, Virginia, blacks are concerned about
voting at the Veterans of Foreign Wars (VFW) Hall
located in the white community. According to the
president of the Virginia chapter of the Southern
Christian Leadership Conference, there are no voting
places in the black community. The present location
is ‘like having the polls at a country club.’” Id. at 17.
The House Report noted that such “[e]xisting and
changed locations of polling places can have a
negative effect on minority voter turnout.” Id.

15
Indeed, the House Report specifically states that
“[t]he amendments [to Section 2] are not limited to
districting or at-large voting. They would also
prohibit other practices which would result in
unequal access to the political process.” Id. at 31.
The House Report specifically identified some such
potential violations: “For example, a violation would
be proved by showing that election officials made
absentee ballots available to white citizens without a
corresponding opportunity being given to minority
citizens similarly situated. As another example,
purging of voter registration rolls would violate
Section 2 if plaintiffs show a result which
demonstrably disadvantages minority voters.” Id. at
31 n.105.
Beyond the House and Senate reports, that
Congress did not mean to shield purportedly
“neutral” “time, place, and manner” laws from
Section 2 scrutiny is repeated again and again in
formal statements by those who voted for the
amendments. These emphasized the critical role of
Section 2 in guarding nationwide against the same
kinds of practices that were subject to preclearance
under Section 5 of the Act. One example is the
statement of Senator Patrick Leahy, who served on
the Subcommittee on the Constitution, before the
Senate Judiciary Committee.
Perhaps the major issues before this
Judiciary Committee is the question of
intent under Section 2 of the Act. If Section
5 is the engine that drives the Act and
renders it enforceable as a practical matter,
Section 2 is still the basic protection against
discriminatory practices. Preclearance does

16
not cover all areas and may not resolve
every threatened violation where it does
apply. Preclearance is designed to stop
voting discrimination before it can start in
covered Jurisdiction, and Section 2 is
calculated to end it whenever and wherever
it is found.
Voting Rights Act of 1982: Hearing on S. 53, S. 1761,
S. 1975, S. 1992, and H.R. 3112 Before the Subcomm.
on the Constitution of the Comm. on the Judiciary,
vol. 2, 97th Cong. 121 (1982) (statement of Patrick J.
Leahy, U.S. Senator of Vermont). See also id., vol. 1
at 209 (statement of Charles Mathias Jr., U.S.
Senator of Maryland) (citing “purging of voters, and
even changes in established polling places” as
“sophisticated dodges” that can discriminate based on
race). Senator Metzenbaum was of a similar view.
See id., vol. 1 at 227 (statement of Howard M.
Metzenbaum, U.S. Senator of Ohio) (addressing
“ploys,” such as “dual registration, reregistration,
gerrymandering, at-large elections, annexations,
intimidation, inconvenience to name a few—is
limited only by the imagination”) (emphasis added).
The Office of the Attorney General of the United
States concurred. See id. at 193 & n.28 (letter of
Hon. William Bradford Reynolds to Hon. Orrin G.
Hatch) (describing breadth of voting procedures that
can discriminate and noting that the terminology
used in Section 4, such as “voting procedures,” is
similar to language appearing in Section 2 of the Act,
42 U.S.C. 1973, (“standard, practice, or procedure”),
and Section 5, 42 U.S.C. 1973c, (“standard, practice,
or procedure with respect to voting”)). It made clear
that “neutral” time, place, and manner regulations,
such as restrictions on “hours and locations for

17
registration” could be found to be discriminatory
practices under the Act, and specifically cited the
examples raised in the House Report. Id. at 194
(citing H.R. Rep. No. 97-227, at 43-44) (“[t]he
Committee hearing record is replete with examples”).
Thus, Congress’ understanding of the procedures
covered by Section 2 was clear. While much of the
legislative history of the 1982 amendments to Section
2 was focused on at-large districts and other
instances where redistricting might violate Section 2,
and related debates about “quotas” and proportionate
representation requirements (issues that were the
subjects of immediate controversy in light of their
relationship with then pending, recent or potential
litigation), there is no doubt that both the House and
the Senate clearly understood that Section 2 would
also apply to interference with voter registration,
polling place locations, absentee ballot restrictions,
purges of voter rolls, and other “vote denial” claims
that differentially impacted a minority group’s
opportunity to cast a ballot, when compared to the
white majority.
III. THE “OPPORTUNITY . . . TO
PARTICIPATE IN THE POLITICAL
PROCESS” GUARANTEED BY SECTION
2 IS A PRACTICAL, NOT MERELY A
THEORETICAL, OPPORTUNITY TO
AVAIL OF A VOTING PROCEDURE.
Congress in 1982 also understood that protecting
equal opportunity to vote means far more than
providing a hypothetical, but hollow, “opportunity” to
comply with a facially neutral voting procedure. As

18
the Senate Report explicitly noted in its discussion of
Section 2, “the requirement that the political
processes leading to nomination and election be
‘equally open to participation by the group in
question’ extends beyond formal or official bars to
registering and voting.” S. Rep. No. 97-417 at 395.
Indeed, in many ways, preventing against
discrimination that might have disparate effects
against minority groups despite a formal
“opportunity” to exercise the vote under a facially
neutral law—like the hypothetical registration office
open only one day in three mentioned by Senator
Fong in 1965—can be seen as the primary purpose of
the Voting Rights Act as a whole. See id.
The State Petitioners, the United States, and the
Cruz Brief take a different position—one that finds
no support in the legislative record. They focus on
the word “opportunity” in Section 2 and suggests that
this word gives license to a broad array of laws that
are facially neutral but that nonetheless operate to
the disadvantage of minority voters. For example,
the Cruz Brief asserts that by including language
prohibiting state voting laws that “result” in a denial
of equal “opportunity,” “Congress rejected a broad
‘discriminatory effects’ test or one requiring racially
proportional outcomes.” Cruz Brief at 4. From here,
the brief marks out a category of so-called “neutral
time, place, and manner voting laws”—a category
that seems to include facially neutral laws, not
expressly called out by name as prohibited in the text
of the Constitution or the Voting Rights Act. Id. at
19-24. The Cruz Brief suggests that Congress saw
such laws as providing an equal “opportunity to
participate in the political process” even when they
impose disparate impacts in light of the totality of the

19
circumstances. Id. at 24 (emphasis in original). See
also id. at 15 (“§2 does not preempt neutral time,
place, and manner voting laws that impose merely
some disparate impact on different racial groups”); id.
at 17 (characterizing prohibited voting laws as
“‘episodic’ barriers,” and “neutral time, place, and
manner statutes”).
The interpretation offered by these parties, the
government, and other amici has no basis in the
language of Section 2 (as Justice Scalia’s hypothetical
example shows). Nor does it have grounding in
Congress’ deliberations in enacting the 1982
amendments. Rather, as discussed above, Congress
in 1982 cited example after example in the legislative
record of such “time, place, and manner” regulations
that formally offered minority groups and whites the
same ability to register or to vote, but in fact
substantially and disproportionately burdened the
minority group. Indeed, the House explicitly stated
that the “purging of voter registration rolls would
violate Section 2 if plaintiffs show a result which
demonstrably disadvantages minority voters.” H.R.
Rep. No. 97-227, at 31 n.105.
Equally important, the novel interpretation of
the parties and amici ignores the fundamental
purpose of the 1982 amendments—to adopt the
approach to voting rights claims under Section 2 that
Justice White, writing for this Court, adopted in
Regester. As this Court has recognized, and as is
crystal clear from both the House and Senate
Reports, the fundamental purpose of the 1982
revisions to Section 2 was “to establish as the
relevant legal standard the ‘results test,’ applied by
this Court in White v. Regester and by other federal

20
courts.” Gingles, 478 U.S. at 35; see S. Rep. No. 97–
417, at 177, 205; H.R. Rep. No. 97-227, at 2, 29.
Regester involved a challenge to facially-neutral laws
that formally guaranteed equal opportunity to vote to
all citizens residing in the single member-districts at
issue in that case. But, when viewed in practice, and
in the light of historical discrimination and thencurrent context, this Court held that the use of such
normally-permissible single-member districts in fact
prevented minority groups from participating equally
in the political process. The Senate Report explicitly
indicated that “opportunity” under Section 2, using
the Regester standard, was to be applied on a contextspecific basis focused on the “reality” of a measure,
not its formal legal status. S. Rep. No. 97-417, at 208
(“As the Court said in [Regester], the question [of]
whether the political processes are ‘equally open’
depends upon a searching practical evaluation of the
‘past and present reality.’”).
Regester involved a challenge to the Texas 1970
reapportionment scheme for the state legislature.
412 U.S. at 758-59. A three-judge district court held
that the multi-member districts provided for Bexar
and Dallas Counties diluted the voting strength of
African-American and Mexican-American voters and
were constitutionally invalid. Id. Relying on past
precedent, the Regester Court specifically explained
that multi-member districts were not facially
improper. Id. at 765 (citing Whitcomb v. Chavis, 403
U.S. 124, 160 (1971) (upholding multi-member
districts as generally constitutional and holding that
a multi-member districting plan for Indianapolis,
Indiana did not violate any constitutional or
statutory voting-rights provision). Nonetheless,
based on the three-judge district court’s careful

21
examination of the historical record and then-current
political landscape (including language barriers to
voting), the Court held that the specific multimember districts imposed on Dallas and Bexar
Counties did violate the protections of the Fifteenth
Amendment. Id. at 766-770 (“we are not inclined to
overturn these findings, representing as they do a
blend of history and an intensely local appraisal of
the design and impact of the Bexar County
multimember district in the light of past and present
reality, political and otherwise”). Based on this
“intensely local appraisal” the Regester Court found
that the plaintiffs had met the necessary standard, of
showing that “the political processes leading to
nomination and election were not equally open to
participation by the group in question—that its
members had less opportunity than did other
residents in the district to participate in the political
processes and to elect legislators of their choice.” Id.
at 766.
Notably, there was no question but that the
minority voters in Regester had the same
hypothetical “opportunity” to vote and participate
in elections in the multi-member districts as did
white voters. Indeed, in Bexar County, MexicanAmerican voters formed a plurality of the eligible
voting population, leading the State of Texas to argue
in that case that the fundamental problem for
Mexican-American voters in that case was a lack of
“political organization,” given their formal
opportunity to dominate the political process. Graves
v. Barnes, 343 F. Supp. 704, 733 (W.D. Tex. 1972)
(district court case at issue in Regester). Nonetheless,
the district court, in its holding that this Court
upheld, stated as follows:

22
It has been argued that the facts of
numerical majority and of low voting
participation indicate that the MexicanAmericans are not entitled to constitutional
relief, since they “could” do very well in
multi-member district elections in Bexar
County. We reject those arguments. . . .
[W]e draw very different conclusions than
does the State from the fact that the
Mexican-Americans register and vote in
such low numbers. The State uses those
facts to argue that the Mexican-Americans
need
political
organization,
not
redistricting. We use those facts in the
context of the other facts regarding the
Mexican-Americans of San Antonio that we
have previously discussed. And we conclude
that the reason that the voter participation
among the Mexican-Americans is so low is
that their voting patterns were established
under precisely the same sort of
discriminatory State actions that we have
already
found
both
relevant
and
condemnatory . . . . Because they were
denied access to the political processes
through years of discrimination, the
Mexican-Americans do not now register and
vote in overwhelming numbers. We are not
at all surprised at that result. Nor do we
feel constitutionally able to respond, as does
the State, that the Mexican-Americans
should be left to the tool of political
organization in order to remedy their
electoral situation in San Antonio and to
exert more influence in multi-member

23
elections in Bexar County. The voting
patterns and the language difficulties,
which we have already concluded were
caused or abetted by State action, have
made the process of organization extremely
onerous, if not illusive.
Id. at 733. Put differently, the analysis of Regester—
which Congress incorporated into Section 2 in 1982—
requires a close examination of whether any voting
“procedure,” be it a redistricting plan, a polling place
location, or a registration requirement, has in a
practical sense resulted in a reduced opportunity for
a covered group to vote or influence the political
process. The mere fact that the group “could”
theoretically participate in the process equally
because a statute or regulation is facially neutral is
not enough.
IV. CONGRESS DID NOT INTEND TO
REJECT “DISPARATE IMPACT”
ANALYSIS IN THE 1982 AMENDMENTS.
Section 2, as amended in 1982, provides that
“nothing in this section establishes a right to have
members of a protected class elected in numbers
equal to their proportion in the population.” 52
U.S.C. § 10301(b). The point of this provision, the
inclusion of which was essential to the passage of the
1982 Amendments, see Gingles, 478 U.S. at 96
(O’Connor, J., concurring), was to make clear that
Section 2 did not require that members of a protected
class be elected in numbers proportionate to the
population. In the words of Senator Dole, the
architect of this compromise language:

24
The language of the subsection explicitly
rejects, as did White and its progeny, the
notion that members of a protected class
have a right to be elected in numbers equal
to their proportion of the population. The
extent to which members of a protected
class have been elected under the
challenged practice or structure is just one
factor, among the totality of circumstances
to be considered, and is not dispositive.
Id. (quoting S. Rep. No. 97-417, at 364).
Section 2’s disclaimer of a right to have
representatives actually elected in proportion to a
minority group’s share of the population has nothing
whatsoever to do with whether a Section 2 violation
can be shown based on the disparate impact of a
requirement (like a requirement governing
registration, polling place, or voting logistics) on a
minority population. Nothing in the legislative
history suggests an intention to reject a disparate
impact analysis—indeed, as many of the examples
cited in Sections I and II, supra, demonstrate, the
very means by which such measures as polling place
location restrictions, hour restrictions, and other
restrictions would have an adverse impact on the
minority vote arises from their disparate impact on
minority populations. Thus, for example, the reason
the voter registration office in Choctaw County with
hours between 9-4 was believed to discriminate
against black voters was precisely because of its
“disparate impact” on the likelihood that black voters
would register to vote—that was the essence of the
violation. See supra Section I.

25
Amici, including the Cruz Brief, rely on
examples taken from the separate statements of
Senator Hatch, and the Report of the Subcommittee
on the Constitution, which Senator Hatch chaired in
1982. Cruz Br. at 15. It takes the statements of
Senator Hatch entirely out of context. Read in
context, it is clear that Senator Hatch believed that
the 1982 Amendments did impose a “disparate
impact” test for Section 2 violations, precisely
because the amendments removed the requirement,
established in City of Mobile v. Bolden, to show
discriminatory intent. Senator Hatch lamented this
aspect of the amendments, but there can be no
question that he believed that, in fact, Section 2 did
require a disparate impact analysis, and that it did so
regardless of its disclaimer of a right to have
members of a protected class elected in numbers
equal to their proportion of the population. As
Senator Hatch explained his view,
The root problem with the Amended Section
2 then is not with an inadequately strong
disclaimer [i.e., the proportional election
language proposed by Senator Dole]; the
root problem is the results test itself. No
disclaimer however strong—and the
immediate disclaimer is not very strong, in
any event, because of its failure to address
proportional representation as a remedy—
can overcome the inexorable and inevitable
thrust of a results test, indeed of any test
for uncovering ‘discrimination’ other than
an intent test.
If the concept of
discrimination is going to be divorced
entirely from the concept of wrongful
motivation, then we are no longer referring

26
to what has traditionally been viewed as
discrimination; we are referring then simply
to the notion of disparate impact.
S. Rep. No. 97-417, at 271-72. The majority of the
Senate Judiciary Committee rejected Senator Hatch’s
view that a requirement of direct proof of intent was
necessary or appropriate to show discrimination, but
it never suggested, anywhere in its own portion of the
Senate Report, that Congress did not intend to
require analysis of disparate impacts via the Section
2 amendments. Thus, while Senator Hatch regretted
the supposed “disparate impact” aspect of the
amendments to Section 2, there is no doubt that he
(and the rest of Congress) believed in 1982 that the
legislation they were enacting contained a disparate
impact component. It would be deeply ironic to read
Senator Hatch’s complaint about what he believed
the 1982 amendments did do to conclude that the
amendments somehow did not permit some form of
disparate impact analysis.
V.

CONGRESS IN NO WAY INTENDED
SECTION 2 TO APPLY ONLY TO
SITUATIONS IN WHICH THE
CHALLENGED MEASURE ITSELF
“CREATED” THE UNDERLYING
DISCRIMINATION.

Finally, Section 2 was always intended to
address the ways in which facially neutral laws
interact with the ongoing effects of past
discrimination. As this Court held in Gingles,
“Congress intended that the Voting Rights Act
eradicate inequalities in political opportunities that
exist due to the vestigial effects of past purposeful

27
discrimination,” including “that political participation
by minorities tends to be depressed where minority
group members suffer effects of prior discrimination
such as inferior education, poor employment
opportunities, and low incomes.” 478 U.S. at 69.
Thus, there is no basis whatsoever in the
legislative history of the 1982 amendments (or the
language of the statute) for the limit on the
application of Section 2 which the Seventh Circuit
incorrectly imposed in Frank v. Walker, 768 F.3d at
753, and which is now urged by the State Petitioners,
the United States, and several amici. In Frank, the
Seventh Circuit held that Section 2 somehow does not
apply to voting procedures that have a discriminatory
effect due to the underlying effects of past
discrimination.
Id. (“units of government are
responsible for their own discrimination but not for
rectifying
the
effects
of
other
persons'
discrimination.”). The Frank case is cited repeatedly
in the Cruz Brief. But nothing in the history or the
language of the statute suggests that Congress ever
intended to impose the limitation imposed by Frank
on the application of Section 2.
Once again, many of the examples described in
Section I, supra, suffice to make the point. A county
registration office with limited hours has (potentially)
discriminatory effect against minority groups because
the historic deprivation of those groups means that
those groups are less likely to be able to register to
vote; but Congress had no problem whatsoever
considering such an action discriminatory and
remediable via Section 2. So too with polling place
locations, absentee ballot restrictions, or many of the
other measures that Congress found non-

28
controversially would be discriminatory and violate
Section 2. See supra Section II.
The Seventh Circuit’s view is also entirely
incompatible with Congress’ adoption of the Regester
standard.
This Court’s discussion in Regester
regarding the Bexar County Mexican-American
community is particularly telling in rebutting the
notion that Section 2 excludes consideration of
discriminatory impacts that may involve the
relationship between a voting rule and a history of
past governmental as well as non-governmental
discrimination in the relevant jurisdiction. The
Court in Regester expressly noted that the MexicanAmerican community in Bexar County had long
“suffered from, and continues to suffer from, the
results and effects of invidious discrimination and
treatment in the fields of education, employment,
economics, health, politics and others.” 412 U.S. at
768. There is no suggestion whatsoever in Regester
that the language barriers identified as well as
discrimination in housing and employment were
somehow all caused by official action by the state of
Texas. What is clear is that the Court’s analysis
turns on a searching and fact-intensive inquiry
regarding how the challenged voting law interacts
with existing circumstances. And this is true despite
the fact that what was at issue was a facially neutral
voting law that merely identified certain counties for
multi-member districts without adopting any racial
classification.
Indeed, nothing in the 1982 legislative
history—not a single stray statement, from a
proponent or opponent of the amendments —suggests
a basis for the limitation that the Seventh Circuit

29
sought to impose in Frank. No Congressman so much
as suggested that the Act would be barred from
applying to facially neutral policies that derived their
discriminatory impact from the differential
socioeconomic conditions that affect minority groups.
Such a position would have been anathema to
Congress’ core purpose in enacting the Section 2
reforms.
CONCLUSION
The 1982 Amendments to Section 2 were one of
the most significant acts of federal civil-rights
legislation of the past 50 years. They were adopted
after intensive debate and by an overwhelming
bipartisan vote. Section 2’s broad application is a
necessary deterrent to the never-ending array of
facially neutral schemes and ploys that can be
conjured up to discriminate in an effort to deny
minority voters equal opportunity. The Court should
not adopt a cramped or constrained interpretation of
Section 2 that departs from Congressional intent.

30
Respectfully submitted,
LAURA W. BRILL
Counsel of Record
NICHOLAS F. DAUM
KATELYN A. KUWATA
KENDALL BRILL & KELLY LLP
10100 Santa Monica Blvd.,
Suite 1725
Los Angeles, California 90067
(310) 556-2700
lbrill@kbkfirm.com
Counsel for Amici Curiae

